                 OFFICE OF INSPECTOR GENERAL

                                                          Catalyst for Improving the Environment


  Audit Report




               Costs Claimed by the Tribal Association
               on Solid Waste and Emergency
               Response Under EPA Assistance
               Agreement No. CR827181-01

               Report No. 2003-4-00119


               September 19, 2003




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:                      Keith Reichard
                                          Richard Valliere
                                          Juliet Ober




Abbreviations

Association     Tribal Association on Solid Waste and Emergency Response
CERCLA          Comprehensive Environmental Response, Compensation and Liability Act
CFR             Code of Federal Regulations
EPA             Environmental Protection Agency
FSR             Financial Status Report
OIG             Office of Inspector General
OMB             Office of Management and Budget
RCRA            Resource Conservation and Recovery Act
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                       September 19, 2003


MEMORANDUM

SUBJECT:       Report No. 2003-4-00119
               Costs Claimed by Tribal Association on Solid Waste and Emergency Response
               Under EPA Assistance Agreement No. CR827181-01

               /s/ Keith Reichard for
FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Richard Kuhlman
               Director, Grants Administration Division


As requested, we have examined the costs claimed by the Tribal Association on Solid Waste and
Emergency Response (Association), located in Washington, DC, under Environmental Protection
Agency (EPA) Assistance Agreement No. CR827181-01. The agreement was to provide a
government-to-government mechanism through which tribes could be proactively involved in the
policy discussions that effect implementation of environmental programs on their land.

We questioned the total Federal share claimed of $2,357,376 as unsupported, because the
Association did not comply with the Federal rules, regulations, and terms of the assistance
agreement.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA position.
The OIG has no objection to the release of this report to any member of the public upon request.

On July 1, 2003, we issued a draft report to the Association for comment, and on August 7, 2003,
comments were provided. The Association did not agree with the report’s findings. The
Association’s response is included in the report as Appendix B. We held a telephone exit
conference on September 11, 2003, and informed the Association of the final results of our audit.
Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. The draft management decision is due within 120 days of the
date of this transmittal memorandum.

If you have questions concerning this report, please contact Keith Reichard, Assignment
Manager, at (312) 886-3045.
                                   Table of Contents

Independent Accountant’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   3

Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



 Appendices

  A     Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

  B     Association’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

  C     Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                  Independent Accountant’s Report
We have examined the total outlay (costs) claimed by the Tribal Association on Solid Waste and
Emergency Response (Association) under the Environmental Protection Agency (EPA) financial
assistance agreement, as shown below:



                                        Financial Status Report
                                                            Cumulative
          Assistance          Date            Period       Total Outlays
         Agreement No.      Submitted         Ending         Claimed       Federal Share

          CR827181-01         2/27/03        12/31/02        $2,357,376      $2,357,376




The Association certified that the outlays reported on the Financial Status Report, Standard Form
269A, were correct and for the purposes set forth in the Agreement. The preparation and
certification of each claim was the responsibility of the Association. Our responsibility is to
express an opinion on the claim based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. Accordingly, on a test basis, we examined
evidence supporting the claimed costs and performed such other procedures as we considered
necessary in the circumstances (see Appendix A for details). We believe that our examination
provides a reasonable basis for our opinion.

As discussed in the Results of Audit section of this report, the Association’s financial
management system was not adequate to account for claimed costs in accordance with Federal
regulations. The Association also did not comply with Federal requirements when procuring
contractual services.

In our opinion, because of the effects of the matter discussed in the preceding paragraph, claimed
costs on the Financial Status Report do not present fairly, in all material respects, the allowable
costs in accordance with the criteria set forth in the Agreement. As a result, the total costs
claimed of $2,357,376, are presently unallowable for Federal participation. The following
sections provide details on our examination and conclusions.

                                                     /s/ Keith Reichard
                                                       Keith Reichard
                                                       Assignment Manager
                                                       Field Work End: April 14, 2003


                                                 1
2
                                        Background
On September 25, 1998, EPA awarded Assistance Agreement No. CR827181-01 to the
Association. The following table provides some basic information about the authorized project
period and the funds awarded under the Agreement covered by this audit.



          Assistance           EPA           Local           Total         Project
         Agreement No.        Share *        Share           Costs         Period

          CR827181-01       $3,100,000         $0        $3,100,000   09/25/98 - 08/31/03

            * The EPA share is 100 percent of total costs.



This Agreement was authorized under section 8001 of the Resource Conservation and Recovery
Act (RCRA) and section 311(c) of the Comprehensive Environmental Response, Compensation
and Liability Act (CERCLA). The Agreement provided financial support for the newly formed
Association, headquartered in Washington, DC, to provide a government-to-government
mechanism through which tribes could be proactively involved in the policy discussions that
effect implementation of environmental programs on their land. Activities under the Agreement
included education and training to Federally recognized tribes on all aspects of solid waste and
emergency response. The Agreement also authorized the compilation of research on tribes,
including the identification of existing services, problems, and needs. This research data was to
be used to detail the human health effects associated with waste programs on tribes and their
communities. The Federal share of the Agreement was 100 percent of total costs.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Claimed Costs:               Program outlays identified by the State on the Financial
                                    Status Report (Standard Form 269 or 269A).

       Unsupported                  Costs incurred and claimed that are not supported by
       Questioned Costs:            adequate documentation and/or have not been approved by
                                    a responsible agency official.




                                                    3
4
                                  Results of Audit
The Association’s financial management and procurement systems did not comply with the
requirements of 40 Code of Federal Regulations (CFR) Part 30 and Office of Management and
Budget (OMB) Circular A-122.

The provisions of 40 CFR Part 30 establish uniform administration requirements for Federal
grants and awards to non-profit organizations. OMB Circular A-122 establishes principles used
by all Federal Agencies in determining the costs of work performed by non-profit organizations
under grants and cooperative agreements. In accepting the grant award, the Association agreed
that it would comply with 40 CFR Part 30 and OMB Circular A-122, and that all procurement
transactions would be conducted in a manner to provide, to the maximum extent practical, open
and free competition.

The Association’s financial management system was inadequate in that the Association could not
or did not: (1) provide a summary of claimed costs by cost element or reconcile claimed costs to
its general ledger, (2) support its salaries and wages, (3) competitively procure contractual
services or perform any of the required cost or pricing analyses, (4) provide a legal written
agreement to support its subgrant, and (5) appropriately draw down cash. As a result of these
deficiencies, we have questioned all $2,357,376 in costs claimed under the Agreement. Details
follow.


Claimed Costs Not Reconciled

       The Association could not provide us with a summary of claimed costs by cost element
       and did not reconcile the total claimed costs with the general ledger. Accordingly, we
       attempted but were not able to reconcile the claimed costs on the financial status reports
       (FSRs) with the Association’s general ledger.

       Title 40 CFR 30.21(b) provides that the recipient’s financial management system shall
       provide for accurate, current, and complete disclosure of the financial results of each
       Federally sponsored project or program in accordance with the reporting requirements set
       forth in 40 CFR 30.52. It also states the system shall provide for comparison of outlays
       with budget amounts for each award.

       The Association’s financial management system did not meet any of the above
       requirements for an adequate financial management system. Consequently, we
       have questioned, as unsupported, the claimed costs of $2,357,376. The following
       table outlines the differences between costs claimed on the FSRs and the
       expenditures in the general ledger for the audited reporting periods:




                                                5
                                        Costs       Expenditures
                             Date      Claimed       Per General
           Period          Submitted   on FSR          Ledger      Difference

     10/01/98 - 9/30/99      8/13/02    $343,035      $338,019        $5,016

     10/01/99 - 9/30/00      8/13/02    $552,919      $549,746        $3,173

     10/01/00 - 9/30/01      8/13/02    $616,897      $622,417       ($5,520)

     10/01/01 - 9/30/02     10/18/02    $777,056      $783,699       ($6,643)

     10/01/02 - 12/31/02     2/27/03     $67,469       $67,469            $0

     Cumulative Totals                 $2,357,376    $2,361,350      ($3,974)




Association’s Response

The Association indicated it made a good faith effort to comply with 40 CFR30.21(b) and
40 CFR 30.52 during a startup period. While Association officials agreed that
discrepancies between the FSRs and general ledger should be zero, they indicated the
discrepancies were extremely close to zero, and they have every reason to believe the
FSRs and the general ledger will be completely reconciled in the future. They said the
Association for the first 2 years was working out of a paper checkbook and then
converted to a computerized system. An outside accounting firm has been hired to
prepare the FSRs. The FSRs in question were filled out retroactively, and there were
adjustments from previous periods that may have not been reflected in the transition from
checkbook to outsourced accounting services. The Association is now working with two
outsourced accounting firms.

Auditor’s Reply

While the Association does have two outsourced accounting firms (one is its OMB A-133
annual auditor and the other is performing the bookkeeping services) it still has not
submitted an FSR that will reconcile total costs reported to its general ledger. The
financial activity reported on the FSR for the period October-December 2002 could be
reconciled to the general ledger; however, the Association still has not made a full
accounting of its financial activity as required by 40 CFR 30.21(b). Without the ability to
reconcile claim costs to the general ledger, the Association cannot identify the specific
costs being claimed, and EPA cannot assure that claimed costs are allowable under the
terms of the Agreement.




                                         6
Unsupported Labor Costs

    The Association did not maintain support for its salaries and wages required by OMB
    Circular A-122. As a result, we were unable to determine whether labor costs recorded in
    the general ledger were allowable in accordance with the Agreement.

    The requirements of 40 CFR 30.27 provide that non-profit organizations shall follow the
    provisions of OMB Circular A-122 for determining allowable costs. That Circular
    requires that: (1) charges to awards for salaries and wages, whether treated as direct costs
    or indirect costs, will be based on documented payroll approved by a responsible
    official(s) of the organization; and (2) labor reports reflecting the distribution of activity
    of each employee must be maintained for all staff members (professionals and
    nonprofessionals) whose compensation is charged, in whole or in part, directly to awards.
    To satisfy these requirements, reports maintained by non-profit organizations must meet
    the following standards:

    •   The reports must reflect an after-the-fact determination of the actual activity of each
        employee. Budget estimates (i.e., estimates determined before the services are
        performed) do not qualify as support for charges to awards.

    •   Each report must account for the total activity for which employees are compensated
        and which is required in fulfillment of their obligations to the organization.

    •   The reports must be prepared at least monthly and must coincide with one or more
        pay periods.

    OMB Circular A-122 also provides that charges for the salaries and wages of
    nonprofessional employees, in addition to the supporting documentation described above,
    must also be supported by records indicating the total number of hours worked each day
    maintained in conformance with Department of Labor regulations implementing the Fair
    Labor Standards Act.

    Prior to November 9, 2002, there was no evidence that Association employees prepared
    timesheets. Without supporting time records, labor costs are not allowable under Federal
    regulations. On November 9, 2002, the Association’s Board of Directors approved new
    time keeping policies for both exempt and nonexempt employees. This new policy and
    timesheet are sufficient for an organization with only one cost objective. However, this
    new policy and timesheet are not adequate for an organization with multiple cost
    objectives. OMB Circular A-122 requires time records to report on time worked on each
    cost objective. A cost objective is defined in OMB Circular A-122, as a particular
    award, project, service, or other direct activity of the organization.




                                              7
    Association’s Response

    The Association indicated the previous executive director evidently began using
    timesheets but discontinued the process. The amount paid to employees is fully
    documented in the records of the outsourced payroll entity. As part of the Corrective
    Action Plan timesheets have been reinstated.

    The Association indicated that while OMB Circular A-122 technically requires labor
    documentation reports, given the fact the Association only has one award, they believed
    the objective of the requirement has clearly been met. They said the Association’s payroll
    system technically satisfies the requirement of Item 7(m) of Attachment B of A-122 in
    several respects; e.g., after-the-fact determination of the actual activity of each employee,
    and the reporting of total activity no less frequently than monthly. The Association
    indicated that to take a literal reading of the requirement is not in keeping with the
    spirit/objective of ensuring allowability.

    The Association believes that there is really no dispute over what the funding was being
    used for. As for the division between CERCLA and RCRA, funding this grant uses a
    predetermined percent to draw down funds; thus, there is not a need to identify time by
    cost objective.

    Auditor’s Reply

    The only timesheets that the Association made available to us were the ones used after the
    Corrective Action Plan was instituted on November 9, 2002. Prior to this date, there
    were no timesheets available to support the hours claimed under the Agreement as
    required by Federal regulations. Consequently, the Association has not complied with the
    terms of the Agreement.

    While the Association is correct in that it need not split time worked on CERCLA or
    RCRA projects, since this assistance agreement was awarded for one project, the
    Association needs to account for employees’ indirect time (e.g., paid absences) as well as
    direct time to reflect after-the-fact determination of actual activities as future EPA
    assistance agreements will not be combined funding.


Improper Procurement Practices

    The Association did not competitively procure contractual services, and did not perform
    the required cost or price analysis for the procurement of contractual services.

    The provisions of 40 CFR 30.43 provide that all procurement transactions shall be
    conducted in a manner to provide, to the maximum extent practical, open and free
    competition. Further, 40 CFR 30.45 requires some form of cost or price analysis to be
    made and documented in the procurement files in connection with every procurement

                                             8
    action. Price analysis may be accomplished in various ways, including the comparison of
    price quotations submitted, market prices, and similar indicia, together with discounts.
    Costs analysis is the review and evaluation of each element of cost to determine
    reasonableness, allocability, and allowability.

    In October 2000, the Association awarded a sole source fixed price research contract for
    a two-year period with an anticipated 1-year option, for a total contract price of
    $750,000, to the University of Tulsa. The Association did not provide any support to
    demonstrate the selection process for this contract, or that a cost or pricing analysis was
    conducted. Our review disclosed that a former Association board member was
    instrumental in soliciting the University for this contract. Prior to the award of contract,
    the former board member was hired by the University. Accordingly, because of a lack of
    competition and a cost or pricing analysis, there was no assurance that the paid contract
    costs were reasonable. Therefore, these costs are not allowable under Federal rules.

    As of December 31, 2002, the Association had paid the University $500,000 of the
    $750,000 contract amount ($250,000 in advance in each of the first 2 years). The
    Association has not received a final accounting of the funds expended by the University
    during that second year or received a refund for any uncompleted work.

    Association’s Response

    The Association reaffirmed that its current practices provide for a competitive bid
    process. As far as its past practices relating to the original University of Tulsa contract,
    the Association contends that it solicited bidders verbally, with only one proposal being
    received. Board members were asked on their own to investigate potential vendors.

    Auditor’s Reply

    The Association has not provided any information related to a cost or pricing review to
    support the procurement for this contract. Title 40 CFR 30.45 requires that some form of
    cost or price analysis shall be made and documented in the procurement files in
    connection with every procurement action. Although the Association contends that it
    solicited bidders verbally, there is no evidence to support this statement. Further, there is
    no documentation to show what organizations were contacted or how the contract price
    was determined.


Unsupported Subgrant

    The Association made payments of $121,185, as of December 31, 2002, to vendors for
    work performed under an apparent subgrant with the Cahto Tribe, but did not have a
    written agreement with the Cahto Tribe supporting this subgrant. The subgrant was for
    site assessment work and video documentation performed at the Laytonville Dump for
    the Cahto Tribe of Laytonville, California. According to 40 CFR 30.5, the provisions of

                                              9
    40 CFR Parts 30 and 31, as applicable, shall apply to subrecipients performing work
    under awards. The term subgrant is defined in 40 CFR 31.3 and includes financial
    assistance when provided by a contractual legal agreement. The Association has not
    provided any evidence it entered into a legal agreement with the Cahto Tribe, but made
    payments directly to the vendors procured by the Tribe.

    It is our understanding that the Cahto Tribe received separate funding from EPA to
    develop an environmental office and to develop a water quality assessment program to
    investigate potential mitgration of contaminations from the Laytonville Dump. Without a
    legal agreement outlining the scope of work of the subgrant, we have no assurances that
    the contract services paid by the Association do not duplicate the same services provided
    for under the EPA grant provided to the Cahto Tribe. Since the vendor costs of $121,185
    were not paid in accordance with a binding legal agreement, the costs are not allowable
    under Federal rules.

    Association’s Response

    The Association concurs that a written statement of award was lacking. Nonetheless, the
    Association believes that the award itself was justified and, in its opinion, allowable.

    Auditor’s Response

    Without documentation to support award of this subgrant, we cannot determine if the
    costs are allowable under the Agreement.


Inappropriate Cash Drawdowns

    The Association drew down EPA funds in advance of the actual need. This practice,
    which occurred due to the lack of written procedures, resulted in the Federal government
    incurring unnecessary interest costs on those funds, and can result in overpayments.
    In addition, the excessive draws were contrary to 40 CFR 30.22 (b), which states in part:

       Cash advances to a recipient organization shall be limited to the minimum
       amounts needed and be timed to be in accordance with the actual,
       immediate cash requirements of the recipient organization in carrying out
       the purpose of the approved program or project. The timing and amount
       of cash advances shall be as close as is administratively feasible to the
       actual disbursement by the recipient organization for direct program or
       project costs and the proportional share of allowable indirect costs.

    We reviewed the Association’s average daily balances in its checking account per the
    monthly statement and as of the day of EPA funds deposit, and found that the checking
    account balances were often excessive. Of the 72 drawdowns that we tested, 26 were


                                            10
made when the grantee had a checking account balance exceeding $10,000, which we
consider an appropriate threshold. These balances ranged from $10,787 to $26,195.

Association’s Response

In the Association’s response, the executive director states in part, “I do not know of the
circumstances involving these drawdowns because I was not here.” The executive
director goes on to explain that current practice is to request drawdowns that represent a
2-week need per EPA’s Grant Office.

Auditor’s Reply

The U.S. Treasury’s current system – Automated Standard Application for Payment –
allows recipients to request daily drawdowns. EPA’s fundamental requirement is for
recipients to draw down immediate cash needs. Immediate cash needs have been
determined by EPA to be that amount of funds needed to cover expenses for 3 business
days. We believe that the past practice of cash drawdowns resulted in excess cash being
drawn down.




                                         11
12
                             Recommendations

We recommend that EPA:

1.        Recover the $2,357,376 that is not supported in accordance with 40 CFR Part 30 and
          OMB Circular A-122.

2.        Suspend work under the current agreements and make no new awards until the
          Association can demonstrate that its accounting practices are consistent with Federal
          requirements (see recommendation number 3).

3.        Require the Association to modify its financial management system and practices to
          meet the requirements of 40 CFR 30.21. At a minimum, the Association’s system
          must:

          a.   Ensure that financial reports are current, accurate, complete, and supported by
               accounting records.

          b.   Include records that adequately identify source and application of funds for
               Federally-sponsored programs. These records should be in sufficient detail to
               allow a comparison of the budgeted grant costs by cost element with the actual
               incurred and claimed costs.

          c.   Include written procedures to determine reasonableness, allocability, and
               allowability of costs in accordance with the Agreement and OMB Circular
               A-122.

          d.   Include accounting records that are supported by adequate source
               documentation.

          e.   Require the Association to establish an adequate time distribution system that
               meets the requirements of OMB Circular A-122, Attachment B, paragraph 7.
               The system should account for total hours worked and leave taken, and identify
               the specific activities and final cost objectives that the employees work on
               during the pay period. It should also serve as the basis for charging labor costs
               to Federal grants and cooperative agreements.

          f.   Require the Association to follow all procurement standards under 40 CFR
               30.40 through 30.48

          g.   Ensure compliance with cash draw requirements.



                                             13
14
                                                                                  Appendix A

                          Scope and Methodology

EPA discovered a material weakness in the Association’s financial management system during
an on-site review conducted by Walker and Company LLP for the EPA. Consequently, the EPA
requested the OIG to conduct an audit of the Association. We performed our examination in
accordance with the Government Auditing Standards, issued by the Comptroller General of the
United States, and the attestation standards established by the American Institute of Certified
Public Accountants. We also followed the guidelines and procedures established in the OIG
Audit Process Handbook dated November 5, 2002.

We conducted this examination to express an opinion on the claim, and determine whether the
Association was managing its EPA assistance agreement in accordance with applicable
requirements. To meet these objectives, we asked the following questions:

       1. Is the Association’s accounting system adequate to account for assistance agreement
          funds in accordance with 40 CFR 30.21?

       2. Does the Association maintain an adequate labor distribution system that conforms to
          requirements of OMB Circular A-122?

       3. Is the Association properly drawing down assistance agreement funds in accordance
          with the Cash Management Improvement Act?

       4. Are the Association’s procurement procedures for contractual services complying
          with 40 CFR 30.40 to 30.48?

       5. Is the Association complying with its reporting requirements under 40 CFR 33.51 and
          30.52?

       6. Are the costs claimed/incurred under the Agreement adequately supported and
          eligible for reimbursement under the terms and conditions of the Agreement,
          OMB Circular A-122, and applicable regulations?

In conducting our examination, we reviewed the project files and obtained the necessary
assistance agreement information for our examination. We interviewed the grants specialist to
determine whether any concerns needed to be addressed during our examination. We also
interviewed Association personnel to obtain an understanding of the accounting system and the
applicable internal controls as they relate to the claimed costs. We obtained and reviewed the
single audit reports, and the Financial Management System Review, conducted by an outside
audit firm at the request of the EPA Grants Administration Division, Office of Grants and
Debarment, to determine whether there were any reportable conditions and recommendations
addressed in those reports.

                                              15
We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the Association’s compliance with OMB
Circular A-122; Title 40 CFR Part 30; and the terms and conditions of the assistance agreement.
We also examined the claimed costs on a test basis to determine whether the costs were
adequately supported and eligible for reimbursement under the terms and conditions of the
assistance agreement, OMB Circular A-122, and applicable regulations. We conducted our field
work from March 3, 2003, to April 14, 2003.




                                              16
                                                                                      Appendix B

                                 Association’s Response
    Note: This letter is an electronic rendering of the official printed document. It has been
    formatted for electronic presentation. To request a printed version of this report please
    contact the Office of Congressional and Public Liaison at (202) 566-2391.

   August 7, 2003

   Mr. Michael A. Rickey
   Director
   Assistance Agreement Audits
   U.S. Environmental Protection Agency
   Washington, D.C. 20460

   RE: Comments on July 1, 2003 Draft Audit Report of Costs Claimed by
   the Tribal Association on Solid Waste and Emergency Response
   (TASWER) under EPA Assistance Agreement No. CR8227181-01

   Dear Mr. Rickey:

   This letter is in response to your invitation to respond to the draft audit
   report referenced above. This letter contains comments under headings
   related to issues cited in the draft audit report.

1. Corrective Actions. TASWER wishes to reiterate and stress that, in
   response to the EPA Stop-Work Order of July 6, 2002 TASWER instituted
   corrective actions that resulted in procedures that are now in place that
   addressed all of the issues cited in your report. A copy of the corrective
   actions report is attached as Appendix A.

2. Improper Procurement Practices. One of the corrective actions taken
   was the institution of a fiscal management policy that includes a
   procurement policy. A concern of EPA's initial financial management
   review performed for EPA by Walker & Co. and the resulting stop-work
   order was that the agreement with the University of Tulsa (TU) should
   have been put out to competitive bids. This is also the focus of this issue in
   the draft audit report.

a. Contract Has Been Put Out to Competitive Bids. As part of its condition to
   lift the stop work order, the EPA grants office requested that TASWER
   put the third-year of the contract out for competitive bids. (Your draft
   report contains an incorrect statement, by the way: "However, this contract
   was terminated during the second year of the contract." The contract did
   not terminate during the second year of the contract. It was a two-year
   contract for a three-year project, which thus allowed for a review of the
   project before completion. The contract with TU naturally terminated on
   September 20, 2002.) When it received no response to its request of the
   award of the third-year of the contract from TASWER, which was under


                                            17
   the stop-work order, TU made the award solicitation directly to the EPA
   Grants Office, which resulted in EPA's request that TASWER put the third
   year out for competitive bids. In making this request, as EPA
   Administrator Christie Todd Whitman noted in her response to Rep. John
   Sullivan (D-OK), who, at TU's request, had asked EPA to award the third
   year of the agreement to TU without a competitive bid process, EPA's
   actions were in accordance with 40 CFR 30.44(e)(1) and (5). Ms.
   Whitman wrote, "[T]he grant regulations at 40 CFR 30.44(e)(1) and (5)
   allow us to review the procedures that TASWER will follow in exercising
   the option on the Tulsa contract to ensure that exercising the option would
   be consistent with competitive procurement procedures." One way, and we
   believe the correct way, of looking at this is that the system, under 40 CFR
   30.44(e)(1) worked. TASWER made an awards decision for a two-year
   contract for a three-year project. In reviewing how the contract was
   awarded, EPA, based on its review under 40 CFR 30.44(e)(1), made a
   determination that it would be best if the third-year was put out for
   competitive bids, and therefore it was. Attached in Appendix B is a
   summary of the competitive bids procedure for the third year of the project
   agreement.

b. TASWER Vigorously Affirmed the Competitive Bid Process. In April
   2003, the third year of the agreement was awarded to a bidder other than
   TU. TU filed a formal protest with the TASWER Board of Directors and a
   FOIA request with EPA to facilitate its further protests and potential
   litigation. The TASWER Board rejected TU's protest in June 2003, and
   TASWER responded that it would pursue litigation unless TU cooperated
   with the transition to the new vendor, stating that TU's protests were
   frivolous and were delaying the entire project. TU responded in turn by
   agreeing to drop its protest and to cooperate on a transition. Appendix C is
   a packet of materials presented to the TASWER Board of Directors at its
   July 2003 meeting; it mostly includes relevant correspondence with TU on
   this matter. On July 16, 2003 I, TASWER's grant specialist,
   representatives of the new vendor, and TU representatives met in Tulsa on
   the transition of vendors. The meeting was very successful. TU's work is
   being utilized by the new vendor, and TU is cooperating in the transition.
   The end result is that the project has been put out to competitive bids and
   the work of the first two years is being utilized by the third-year vendor.
   This has been done, to my understanding, to the satisfaction of the EPA
   Grants Office.

c. Uncommitted Balances. The draft audit mentions the issue of uncommitted
   balances of the TU agreement. On June 29, 2003, I called Richard M.
   Valliere of your office to say that he had mentioned the issue of
   uncommitted balances when he was here; I told him we were working out


                                        18
   a settlement agreement with TU and asked his advice. He indicated that I
   should talk to our grants officer, Jeanne Conklin, and work out an
   arrangement with her. Appendix C includes e-mails with her and with our
   projects officer, Felicia Wright, that resulted in Ms. Conklin's approval of
   our plan concerning these balances, which I then included in the
   settlement and release agreement. There was some continued dispute as to
   the amount of balances, which was resolved, as reflected in the
   correspondence included in Appendix. C.

d. Competitive Investigations. TASWER has put the third-year of this
   research contract out to competitive bids and now has a formal
   procurement policy. The only explanation for why such a policy did not
   exist previously was that TASWER was a new organization and the TU
   project was its first service contract. But TASWER thinks it is important
   to point out that 40 CFR 30.43 does not require competitive bids but that
   competition for procurement transactions, "to the maximum extent
   possible," be "open and free." As the history of this project shows, there is
   evidence that a competitive investigation was performed by TASWER and
   that a good faith effort was made to solicit bidders, given the limited
   resources and the fact that the decision was almost the first major
   transaction of the association.

   In February 2000, TASWER created a Board committee to determine how
   to utilize TASWER's CERCLA grant money. Committee Members were
   Board members Marcie Philips, Calvin Murphy, and Earl Hatley. The
   committee recommended that TASWER fund a risk assessment model for
   Tribes that included a map of hazardous waste sites. On April 18, 2000,
   the TASWER Board unanimously voted to fund the project. As Appendix
   D, a fax from TASWER's then-executive director Jeff Tomhave to
   TASWER's new project manager, Felicia Wright, indicates, Board
   members were asked on their own to investigate potential vendors, and
   they did. As the Board minutes document, finding vendors with Native
   American experience as well as sufficient technical expertise was a
   concern (and it, incidentally, still is.) Messers. Hatley and Tomhave both
   had experience with the University of Tulsa's National Energy-
   Environment Law and Policy Institute, which had mapping capabilities--it
   had purchased ArcView mapping software for other projects--and had
   relationships with various Tribes through its Native American Center.
   They both approached TU, and TU agreed to send TASWER a proposal.
   Although other Board members talked to potential bidders, none of these
   potential bidders submitted a proposal. On its own, TU approached Mr.
   Hatley about working on the project, and, as Appendix D indicates, Mr.
   Tomhave and the Board had concerns about this. Mr. Hatley resigned
   from the Board but not because of these concerns (of which he says he


                                        19
         was unaware and Appendix D shows he was not part of the meeting
         discussing this) or because of the project but because he was no longer
         employed by the Quapaw Tribe and therefore could not represent the
         Tribe on the Board. His letter of resignation, which is Appendix E,
         confirms this. He could not have remained on the Board, regardless. Once
         off the Board and unemployed, Mr. Hatley was hired by TU for various
         projects, one of which was, potentially, the TASWER research project.

         The draft audit report contains another incorrect statement related to this,
         which has an unfortunate and negative connotation: "Further, this board
         member had resigned from the Association's board in July 2000 and was
         subsequently hired by the University in August of 2000 to conduct the
         research under the Association's contract." This is incorrect on several
         counts. Mr. Hatley resigned from the Board on June 23, 2000 for the
         reasons given in his letter, was hired by TU on July 10, 2000, but not to
         "conduct the research on the project," since the TASWER Board did not
         vote to award the contract to TU until September 14, 2000 and the contract
         was not executed until October 20, 2000. Mr. Hatley was available to
         work for TU not because he resigned from the TASWER Board to avoid a
         conflict of interest but because his employment was terminated by his
         Tribe; his actually working on the project was not assured until the Board
         vote in mid-September 2000, three months after his resignation from the
         TASWER Board. And the vote to give the contract to TU was not
         unanimous--7-1-1 abstention.

         And so, nothing was handed on a platter to TU. Bids were solicited
         verbally. TU was the only bidder, but it did submit a detailed proposal that
         was reviewed by the Board as to its costs and effectiveness and voted on.
         And the Board could always have voted against TU--one Board member
         did and one abstained. There was a competitive process.

    e. Conclusions In short, not withstanding the fact that EPA regulations
       specifically provide for instances where it is not practical or possible to
       award large procurements competitively,1 the TASWER Board attempted
       to satisfy and arguably did satisfy in substance the competitive
       requirement. It solicited bidders verbally, one entity submitted a proposal,
       and that proposal was reviewed by the committee and Board and voted on
       by the Board.2 The fax memo in Appendix D describing this process was

1
  See 40 CFR 30.44(e)(2); see also 40 CFR 30.44 (d), which specifically notes that "Contracts shall be
made only with responsible contractors who possess the potential ability to perform successfully under the
terms and conditions of the proposed procurement," These criteria were clearly utilized during the
TASWER Board's review of the TU proposal, and TU was eminently qualified and responsible.
2
  As such, it is not accurate to say that there was a lack of cost/pricing analysis; rather, the deficiency is
more an issue of documentation.


                                                      20
           sent to TASWER's EPA project manager on July 9, 2001 at her request
           and was in the material available to the OIG auditors when they were in
           our offices early this year, as were the Board minutes.3 (Mr. Hatley's letter
           of resignation was not made available to them because they did not ask to
           see Board appointment and resignation letters and because I did not know
           their inquiry was following this particular tact.) And, if that competitive
           process, however much in good faith, was inadequate, TASWER has
           attempted to rectify that by putting the third year out to competitive bids.
           Consequently, TASWER made a good faith effort at the time to comply
           with 40 CFR 30.43 through 40 CFR 30.45 and has made a vigorous effort
           to do so this year, as Appendices B and C illustrate.

      3. Claimed Costs Not Reconciled. TASWER was formed in 1998 but its
         first board meeting was not until 1999 and until the Tulsa grant in 2000,
         which was its first big decision, it was basically in a startup mode. For the
         first two years, the executive director was working out of a paper
         checkbook and then a computer checkbook. In 2000, an outside
         accounting firm was hired, and a month-to-month general ledger is
         electronically available from then onward. The FSRs in question were
         filled out retroactively, and there were, of course, adjustments from
         previous periods that may have not been reflected in the transition from
         checkbook to outsourced accounting. We now have a fiscal management
         plan in place. We are also working with two outsourced accounting firms.
         One of the OIG auditors told me when he was here that the FSR for the
         period October-December 2002 tied in "to the penny." In retrospect, the
         previous executive director should have been more diligent in submitting
         FSRs and in reconciling any discrepancy. And yet, in spite of this and the
         transition from checkbook to outsourced accounting, the cumulative
         difference between the general ledger and the submitted FSRs was
         ($3,974), which represents only .168% of the $2,357,376 claimed on the
         FSRs. A good faith effort was made by TASWER to comply with 40 CFR
         30.21(b) and 40 CFR 30.52 during a startup period, and while the
         discrepancies between the FSRs and general ledger should be zero, they
         are extremely close to zero, and, we have every reason to believe, the
         FSRs and general ledger will be completely reconciled in the future. To
         have such an insignificant difference (not to mention that the difference is
         in favor of EPA, which is to say that the claimed costs were less than the
         costs reported in the general ledger) as a justification for disallowing the
         entire award amount does not appear to us to be a reasonable conclusion.

      4. Unsupported Labor Costs. The previous executive director evidently
         began using timesheets but discontinued the process, for reasons to be

3
    Not to mention that TU's funding was clearly part of FY01 budget submitted to and agreed to by EPA.


                                                     21
discussed. The amount paid to employees is fully documented in the
records of the outsourced payroll entity, Paychek. Timesheets are now in
use. As far as the previous period during which timesheets were not used,
it should still be noted that EPA was and is TASWER's sole source of
funding and the activities described in its cooperative agreement are its
only activities.

While OMB Circular A-122 technically requires labor documentation
reports, given the fact that TASWER only has one award, the objective of
this requirement has clearly been met. Furthermore, TASWER's payroll
system technically satisfies the requirements of Item 7,m of Attachment B
of A-122 in several respects; e.g. after-the-fact determination of the actual
activity of each employee; the reporting of total activity no less frequently
than monthly; etc. To take a literal reading of requiring a labor distribution
report in this situation is not in keeping with the spirit/objective of
ensuring allowability.

So there is really no dispute over what the money was being used for. As
for the division between CERCLA and RCRA funding--the draft audit
report says that even the current timesheet is inadequate because "it does
not provide for the identification of time by cost objective"--that division
is predetermined. Attached in Appendix F is the cost breakout between
TASWER's CERCLA and RCRA funds provided to me in April 2003 by
TASWER's project manager. As you can see, the previous executive
director changed the percentages from year-to-year to reflect changing
emphasis. No matter what actually happens, no matter how much time is
spent on hazardous waste projects as opposed to RCRA projects, the grant
for TASWER is drawn down entirely on the basis of these predetermined
percentages. I have been told that "this is how Las Vegas is set up" when it
comes to divided grants. I have also been told that since the remaining
amounts of the divided grant funding will extend into FY04, EPA will
continue the divided grant funding for one more year but no more. After
that point, TASWER will apply for individual grants for specific projects.
And so, the current timesheets with their lack of designation as to cost
objective reflect the current situation whereby data about time spent on
cost objectives would have no effect on the way the RCRA and CERCLA
grant monies are drawn down. The previous executive director's
discontinuance of the timesheets and his continual and frustrated changes
of the grant percentages may also reflect this situation.

TASWER's accomplishments in Appendix G reflect the work that
TASWER has done in conformity with its grants. And again, EPA has
been TASWER's sole source of funding. EPA can have confidence that



                                     22
   the work paid was paid to accomplish the amounts budgeted and the work
   described.

   To conclude, TASWER has met the substance of the requirements under
   OMB A-122 and in many regards the technical requirements as well.

5. Inappropriate Cash Drawdowns. The draft report states that 26 of the 72
   drawdowns were made "when the grantee had a checking account balance
   exceeding $10,000." I do not know of the circumstances involving these
   drawdowns because I was not here. I do know that when the drawdowns
   are made at the end of the month the executive director knows that he will
   have payroll and rent due and that amount alone exceeds $10,000, not
   including other bills. Sometimes invoices that you count on being received
   on such and such a date do not come in--they come early or they come
   late. The current situation at TASWER is that we only ask for the amount
   that we believe we will use in the next two weeks, which is the directive
   we have received from the grants office. But there are dangers in this, and
   it could be that the previous executive director anticipated these dangers. I
   will tell you a recent relevant anecdote. On June 27, 2003, I made a
   drawdown request of $28,000. Payroll had been approved, and that would
   leave us with $1,981 in the bank. I knew I had other bills that had to be
   paid soon. These would leave us with $518, and the rent would still have
   to be paid. So, I faxed in the drawdown request of $28,000, anticipating
   that 48-hour turnaround Las Vegas promises. By July 1, the money had
   not been received by our bank. I called the Las Vegas Finance Center on
   July 2 and was told that there had been "electronic problems with
   Treasury" but that the money would be in our bank on July 2. When it
   didn't hit July 2, I called and was told there were still "problems with
   Treasury" and that because of the July 4th holiday the money would not be
   transferred until the next Tuesday, July 8! Further, it didn't come on July 8
   and when I called Las Vegas I was told there was nothing more I could
   do--it would come when it comes. It arrived on July 9. During this 13-day
   period TASWER had $518 in the bank and could not pay the rent. I paid it
   on the 10th and was billed for a late fee (which under OMB Circular A-122
   item 16 of Attachment B is arguably an "allowable" cost). And this is not
   the first time this situation has happened in the 10 months I have been with
   TAWSER. When I told the story to other people "in the know," they said,
   "Oh, you have to keep an emergency reserve." And of course the concept
   of an "emergency reserve" is what you have criticized. TASWER is trying
   diligently to conform with regulations and yet still be able to pay its bills,
   with the overall intent to achieve EPA's mandate for TASWER.

   It is, incidentally, our understanding that this type of drawdown problem
   was also experienced by my predecessor.


                                         23
6. Unsupported Subgrant. The draft audit report notes the lack of a written
   agreement between the Cahto Tribe and TASWER to award a subgrant to the
   Tribe whereby TASWER would pay the Tribe for the expenses of its
   subcontractor and also pay some other contractor expenses directly. This lack
   was pointed out to us late in the OIG auditors' stay with us. We contacted the
   Tribe and provided the auditors with the e-mails in Appendix G. After they
   left, we prodded the Tribe to provide us with the material also included in
   Appendix G. There is extensive documentation of what TASWER paid for
   and a detailed draft report and justification. The draft report to the Tribe
   continually refers to the award, and TASWER's actions and its documentation
   of its payments and its justifications in paying clearly indicate that a subgrant
   was made. What is lacking, as has been noted, is a written statement of award.
   The award itself was justified and, in our opinion, allowable.

7. Response Conclusion. To conclude our response, we firmly state that the
   occasional lack of documentation noted in the draft audit report does not
   justify the harsh response of disallowing the entire claim. TASWER's EPA
   project manager was fully informed, albeit sometimes informally, on all
   aspects of TASWER's operations.

   We ask your office, in its final report, not to repeat the disallowance
   conclusion indicated in the draft audit report, since, as we have tried to show
   in this response, 1) TASWER's requirement of competitive procurement
   practices has been satisfied by the recent competitive bid and was satisfied by
   the competitive investigation of the initial award; 2) that the small--.168 % in
   favor of EPA--difference between the FSRs and TASWER's general ledger is
   too small to, in any way, justify an action of disallowance; 3) TASWER's
   labor costs reporting was in conformity with the substance and in many
   instances the technical requirements of the regulations; 4) the drawdowns
   were not inappropriate under the circumstances; and 5) the unsupported
   subgrant was supported by TASWER's actions, although, in this case, as in the
   other case of the other items noted, documentation could admittedly have been
   better. Our corrective actions have specifically addressed the documentation
   issue.


   Sincerely,

   John T. Aquino
   Executive Director
   TASWER

   cc. TASWER Board of Directors


                                            24
                                                                             Appendix C

                                   Distribution

EPA Headquarters

       Director, Grants Administration Division (3903R)(Action Official)
         (Responsible for report distribution to recipient.)
       Director, Office of Grants and Debarment (3901R)
       Agency Audit Followup Coordinator (2724A)
       Associate Administrator for Congressional and Intergovernmental Relations (1301A)
       Associate Administrator for Communications, Education, and Media Relations (1101A)
       Audit Followup Coordinator (GAD)

Office of Inspector General

Inspector General (2410)




                                            25
